                                            NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM

Case Number: 111120044                                                                Page 1 of 1



     We conducted an investigation of a PI 1 and his companl with an NSF SBIR award 3 to
     determine if award terms and conditions were being followed.

     The review found no evidence of fraud or misappropriation of award funds but it was noted that
     the institution had some questionable administrative practices. A letter will be forwarded
     notifying the PI and his company of issues and concerns found. There are no further issues to
     pursue in this matter. No further action will be initiated.

     This case is closed.
